lNTHE

Supreme Court of the United States

JULIAN MONDRAGON- HERNADNEZ,
JOSE LUIS HERNANDEZ,

Petitioners,
V.

UNITED STATES OF AMERICA,

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

Certificate of Service

I, Kara Hartzler, appointed to represent the petitioner under the Criminal
Justice Act, certify that on November 24, 2020, one copy of the Petition for a Writ of
Certiorari, the Appendix, and a Motion to Proceed In Forma Pauperis in the abovecaptioned case were served by first-class mail, postage prepaid, to respondent's
counsel. I further certify that all parties required to be served have been served.
Service was addressed as follows:
Jeffrey Wall
Acting Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530·0001

E&~
KARfHARTZL~
Federal Defenders of San Diego, Inc.
225 Broadway, Suite 900
San Diego, California 92101
Telephone: (619) 234-8467
Attorneys for Petitioners

